IN THE SUPREME COURT OF THE UNITED STATES
ANTONIO PROPHET,
Petitioner.
Case No.:

vs.
DONALD AMES, Superintendent,
Mount Olive Correctional Complex,
Respondent.
PROOF OF SERVICE

I, Antonio Prophet, do swear or declare that on this date, April 14.2021. as required by Supreme
Court Rule 29,1 have served the enclosed Motion for Leave to Proceed In Forma Pauperis and
Petition for a Writ of Certiorari on each party to the above proceeding or that party’s counsel, and
on every other person required to be served, by depositing an envelope containing the above
documents in the United States mail, properly addressed to each of them and with first-class postage
prepaid.
The names and addresses of those served are as follows:
Donald Ames, Superintendent
West Virginia Attorney General
Mr. Patrick Morrisey
812 Quarrier Street, 6th Floor
Charleston, WV 25301
I declare under penalty of peijury that the foregoing is true and correct.
Executed on:
Antonio Prophet, pfo se
Mount Olive Correctional Complex
One Mountainside Way
Mount Olive, WV 25185

